                                              1   OFFICE OF JOB CORPS
                                              2
                                              3
                                              4
                                              5
                                              6
Office of Inspector General—Office of Audit
                                              7
                                              8
                                              9

                                         10
                                         11
                                         12

                                         13

                                         14

                                         15       AUDIT OF JOB CORPS
                                         16       STUDENT PAY ALLOTMENT AND
                                         17       MANAGEMENT INFORMATION SYSTEM
                                         18       FOR THE 2 YEARS ENDED
                                         19       SEPTEMBER 30, 2005
                                         20
                                         21
                                         22
                                         23
                                         24
                                         25
                                         26
                                         27
                                         28
                                         29
                                         30
                                         31
                                         32




                                                                        Date Issued: September 29, 2006
                                                                        Report Number: 03-06-003-01-370
U.S. Department of Labor                               September 2006
Office of Inspector General
Office of Audit                                        Audit of Job Corps Student Pay Allotment and
                                                       Management Information System for the
                                                       2 Years Ended September 30, 2005
BRIEFLY…
Highlights of Report Number: 03-06-003-01-370, a       WHAT OIG FOUND
report to the Administrator of Job Corps.              We found that:

WHY READ THE REPORT                                    1. The SPAMIS Statements of Position
The U.S. Department of Labor (DOL), Office of             as of March 31, 2004, and March 31,
Inspector General (OIG) conducted a performance           2005, and the related Statement of
audit of the Job Corps Student Pay Allotment and          Operations reports for the 6 months
Management Information System (SPAMIS)                    then ended, were generally supported
activity and results for the period October 1, 2003,      by the general ledger and student
through September 30, 2005. Job Corps, a DOL              data, and the Fiscal Year 2004 and
youth training program, uses SPAMIS to process            2005 ending balances were within
payments to Job Corps’ students. SPAMIS’                  expected tolerances.
operating expenses totaled $93.9 million in            2. Overall, the controls over SPAMIS
FY 2004 and $91.5 million in FY 2005. Over                financial operations were adequate;
90 percent of SPAMIS payments are for Living              however, we identified weaknesses
Allowances paid to students during their                  that require management attention.
enrollment at the Job Corps Centers and                3. During the 2-year period ending
Transition Allowance payments paid to students            September 30, 2005, Job Corps took
when they complete or terminate the Job Corps             action to more effectively manage the
program.                                                  significant number of unclaimed living
                                                          and allowance checks. However, Job
                                                          Corps has not determined if state
WHY OIG CONDUCTED THE AUDIT
                                                          escheat laws apply to these
The OIG conducted the audit to determine the              unclaimed checks.
following:
                                                       WHAT OIG RECOMMENDED
1. Were the SPAMIS Statements of Position as
                                                       We recommended that the Administrator of Job
   of March 31, 2004, and March 31, 2005, and
                                                       Corps:
   the corresponding Statement of Operations
   reports for the 6 months then ended,
                                                       1. Use the monthly Job Corps Data
   supported by the general ledger and student
                                                          Center Reports to identify trends and
   data, and were the Fiscal Years 2004 and
                                                          variances to help manage the
   2005 ending account balances within
                                                          program effectively and efficiently.
   expected tolerances?
                                                       2. Provide for the necessary review and
2. Were internal controls over SPAMIS financial
                                                          authorization of financial documents.
   operations adequate?
                                                       3. Monitor the accounting for bank
3. Is Job Corps effectively managing unclaimed
                                                          charges.
   student Living and Transition Allowance
                                                       4. Provide for segregation of duties for
   checks?
                                                          payroll tax payments and IRS
                                                          correspondence.
        READ THE FULL REPORT
                                                       5. Request a Legal Opinion regarding
To view the report, including the scope,                  whether Job Corps is required to
methodology, and full agency response, go to              escheat the unclaimed student
                                                          property (living and transition
http://www.oig.dol.gov/public/reports/oa/2006/            allowance payments) to the states.
03-06-003-01-370                                       6. Rerun a report for the checks remaining
                                                          unclaimed from the initial 120,633 mailings
                                                          and prepare a second mailing.

                                                       Job Corps agreed with the findings and
                                                       recommendations.
                        Audit of Job Corps Student Pay Allotment and Management Information System



Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7


RESULTS

   The Statements of Position as of March 31, 2004, and March 31, 2005,
   and the Corresponding Statement of Operations Reports for the
   Six Months Then Ended Were Supported by the General Ledger and
   Student Data, and the Fiscal Year 2004 and 2005 Ending Account Balances
   Were Within Expected Tolerances ........................................................................... 8

   Overall, the Controls Over SPAMIS Financial Operations Were
   Adequate; However, We Identified Five Weaknesses in Controls Requiring
   Management Attention ............................................................................................ 10

   During the 2-Year Period Ending September 30, 2005, Job Corps
   Took Action to More Effectively Manage the Significant Number of
   Unclaimed Living and Allowance Checks by Reducing the Unclaimed Checks
   Account Balance By $1.7 Million but Job Corps Has Not Determined
   If States Escheatment Laws Apply to These Unclaimed Checks ........................ 14

EXHIBITS...................................................................................................................... 17
    A. SPAMIS Statement of Operations Reports ..................................................... 19
    B. SPAMIS Statement of Position Reports ......................................................... 21

APPENDICES ............................................................................................................... 23
    A. Background ....................................................................................................... 25
    B. Objectives, Scope, Methodology, and Criteria ............................................... 27
    C. Acronyms and Abbreviations........................................................................... 35
    D. Agency Reponse to the Draft Report............................................................... 37




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System



Executive Summary
The U.S. Department of Labor (DOL), Office of Inspector General (OIG) conducted a
performance audit of the Job Corps Student Pay Allotment and Management
Information System (SPAMIS) activity and results for the period October 1, 2003,
through September 30, 2005. The audit covered financial performance and internal
controls of SPAMIS accounts for Fiscal Years (FYs) 2004 and 2005. Job Corps, a DOL
youth training program administered by the Office of Job Corps, uses SPAMIS to
process payments to Job Corps’ students. Over 90 percent of SPAMIS payments are
for Living Allowances to students during enrollment at the Job Corps Centers and
Transition Allowance payments given to students when they complete or terminate the
Job Corps program. The Job Corps Data Center (JCDC), located in Austin, Texas, is
responsible for managing SPAMIS. The JCDC is a government-owned contractor-
operated facility. RS Information Systems Inc. (RSIS) operates the JCDC under the
JCDC services contract with the Office of Job Corps.

Our audit objectives were to determine the following:

1.     Were the SPAMIS Statements of Position as of March 31, 2004, and March 31,
       2005, and the corresponding Statement of Operations reports for the 6 months
       then ended, supported by the general ledger and student data, and were the
       Fiscal Year 2004 and 2005 ending account balances within expected tolerances?

2.     Were internal controls over SPAMIS financial operations adequate?

3.     Is Job Corps effectively managing unclaimed student Living and Transition
       Allowance checks?

Results

We found that:

1. The SPAMIS Statements of Position as of March 31, 2004, and March 31, 2005, and
   the related Statements of Operations for the 6 months then ended, were generally
   supported by the general ledger and student data, and the Fiscal Year 2004 and
   2005 ending balances were within expected tolerances.

2. Overall, the controls over SPAMIS financial operations were adequate; however, we
   identified five weaknesses in controls requiring management attention:

       •   Job Corps’ management did not fully utilize monthly SPAMIS reports.




U.S. Department of Labor—Office of Inspector General                                      3
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System

       •   Accounting and financial documents did not have the proper review or
           authorization.

       •   The contractor incorrectly accounted for bank charges.

       •   The contractor’s accountant was responsible for payroll tax review and was
           also listed as the IRS third party designee, resulting in a segregation of duties
           concern.

       •   The Job Corps Program Payroll Reports contained negative Federal income
           tax withholding for students paid.

    These conditions occurred because either Job Corps management did not establish
    policies and procedures for its staff to follow, or the JCDC services contract did not
    contain the necessary procedures to be followed by the contractor. Further,
    contractor-established policies and procedures were incomplete or at times
    disregarded. These internal control weaknesses could result in funding shortfalls,
    inaccurate reporting, and the inability to detect fraud and/or erroneous payments.
    Additionally, financial information to evaluate the Job Corps Program’s strengths and
    weaknesses and to detect immediate and long-term trends remains unused.

3. During the 2 year period ending September 30, 2005, Job Corps took action to more
   effectively manage the significant number of unclaimed living and allowance checks
   by reducing the unclaimed checks account balance by $1.7 million. However, Job
   Corps has not determined if state escheat laws apply to these unclaimed checks.

Recommendations

We recommend that the National Director of Job Corps develop policies and procedures
to enable the Job Corps staff and the Job Corps Data Center contractor to:

1. Use the monthly JCDC Reports to identify trends and variances to help manage the
   program effectively and efficiently.

2. Provide for the necessary review and authorization of financial documents.

3. Monitor the accounting for bank charges.

4. Provide for segregation of duties for payroll tax payments and IRS correspondence.

We also recommended that the National Director of Job Corps:

5. Request a Legal Opinion regarding whether Job Corps is required to escheat the
   unclaimed student property (living and transition allowance payments) to the states.



4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System

6. Rerun a report for the checks remaining unclaimed from the initial 120,633 mailings
   and prepare a second mailing.

Agency Response

The National Director of Job Corps’ response to the draft report stated that Job Corps
has taken corrective actions on Recommendations 1, 2, 3, 4, and 6, and agreed to take
the corrective action on recommendation 5. The response is included in its entirety at
Appendix D.

OIG Conclusion

Based on Job Corps’ planned and completed actions, all six recommendations are
resolved and will be closed when we verify that the corrective action was implemented.




U.S. Department of Labor—Office of Inspector General                                      5
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

Ms. Esther R. Johnson
National Director
Office of Job Corps
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We conducted a performance audit of the Job Corps’ Student Pay Allotment and
Management Information System (SPAMIS) activity and results for the period October
1, 2003, through September 30, 2005.

Our audit objectives were to determine the following:

1.     Were the SPAMIS’ Statements of Position as of March 31, 2004, and March 31,
       2005, and the corresponding Statement of Operations reports for the 6 months
       then ended, supported by the general ledger and student data, and were the
       Fiscal Year 2004 and 2005, ending account balances within expected
       tolerances?

2.     Were internal controls over SPAMIS’ financial operations adequate?

3.     Is Job Corps effectively managing unclaimed student Living and Transition
       Allowance checks?

We conducted the audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objectives, scope, methodology, and
criteria are detailed in Appendix B.




U.S. Department of Labor—Office of Inspector General                                      7
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System

Objective 1 – Were the SPAMIS’ Statements of Position as of March 31, 2004, and
March 31, 2005, and the Corresponding Statement of Operations Reports for the 6
months Then Ended, Supported by the General Ledger and Student Data, and
Were the Fiscal Year 2004 and 2005 Ending Account Balances within Expected
Tolerances?


Results

The Statements of Position as of March 31, 2004, and March 31, 2005, and the
Corresponding Statement of Operations Reports for the 6 months Then Ended,
Were Supported by the General Ledger and Student Data, and the FY 2004 and
2005, Ending Account Balances Were within Expected Tolerances.

The Job Corps Data Center (JCDC) produces two monthly reports - the Statement of
Position and Statement of Operations. The Statement of Position reports year-end
assets and liabilities. The assets include cash receivables and prepaid allotments. The
liabilities include:

    •   Income Tax
    •   Social Security and Medicare Payables
    •   Unclaimed Pay
    •   Money Due to Centers
    •   Transition Allowance Liability
    •   Accrued Payroll
    •   Unclaimed Checks
    •   Line of Credit

The Statement of Operations provides a summary of Revenue and Expenses. Revenue
includes operating revenue and miscellaneous student revenue. Expenses include:

    •   Living and Transition Allowances
    •   Various Bonuses1
    •   Government Share of Taxes
    •   Taxable Transportation
    •   Clothing Allowances
    •   Allowance for Non-Reimbursable Charges
    •   DOL Mandated Checks


To accomplish our audit of the Statement of Position and the Statement of Operation,
we traced the payroll data from SPAMIS files to the Job Corps Program Statements.
We found that the Statements of Position as of March 31, 2004, and March 31, 2005,
1
 These represent grandfathered General Educational Development (GED) bonuses that Job Corps started phasing
out of the program in 2001 and survey bonuses that remain currently in effect.

8                                                U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System

and the Statement of Operations reports for the 6 months then ended, were supported
by the general ledger.

The student Living Allowance and Transition Allowance accounts represented 90
percent of the SPAMIS’ program expenses. Therefore, we conducted a dual purpose
test for the center level audits to determine if the expenses were accurately stated. The
periods covered were from October 1, 2003, through March 31, 2004, and October 1,
2004, through March 31, 2005. The dual purpose testing consisted of a two stage
statistical sample. From over 90 centers operating under DOL contracts, we randomly
selected 12 centers. For FY 2004, we randomly selected 319 students for the testing of
Living Allowance payments and 365 students for the testing of Transition Allowance
payments. For FY 2005, we randomly selected 320 students for the testing of Living
Allowance payments and 355 students for the testing of Transition Allowance payments.

The following are the results of the testing.

FY 2004

   •   For the random sample of 319 students who received Living Allowance payments
       totaling $88,841, we are 95 percent confident there was no more than a $22,438
       understatement of living allowance expenses. From October 1, 2003, through
       March 31, 2004, the 90 centers in our universe made 615,130 living allowance
       payments to 65,191 students totaling $18,476,475. We concluded that the living
       allowance errors we found were not material to the universe.

   •   For the random sample of 365 students who received Transition allowance
       payments totaling $248,350, we found no errors. From October 1, 2003, through
       March 31, 2004, the 90 centers in our universe made 15,925 transition allowance
       payments to 15,795 students totaling $16,791,500.

FY 2005

   •   For the random sample of 320 students who received Living Allowance payments
       totaling $97,997, we are 95 percent confident there was no more than a $31,390
       understatement for living allowance expenses. From October 1, 2004, through
       March 31, 2005, over 90 centers in our universe made 605,932 Living Allowance
       payments to 64,226 students totaling $18,302,324. We concluded that these
       living allowance errors were not material to the universe.

   •   For the random sample of 355 students who received Transition allowance
       payments totaling $385,350, we are 95 percent confident there was no more than
       a $37,659 understatement for Transition Allowance expenses. From October 1,
       2004, through March 31, 2005, over 90 centers in our universe made 15,729
       transition allowance payments to 15,565 students totaling $16,592,745. We are
       95 percent confident there was no more than a $37,659 understatement for living
       allowance expenses. We concluded that these transition allowance errors were
       not material to the universe.
U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System


We also performed other tests on the remaining significant account balances reported in
each statement as of March 31, 2004, and March 31, 2005, and concluded that student
data supported the general ledger.

Finally, we performed an analytical review of account balances for the periods April 1
through September 30, 2004, and April 1 through September 30, 2005. All line item
account balances were included and the variances were within expected tolerances.
Overall, the FY end account balances were within expected tolerances.

Objective 2 - Were Internal Controls over SPAMIS Financial Operations
Adequate?


Results

Overall, the Controls over SPAMIS Financial Operations Were Adequate;
However, We Identified Five Weaknesses in Controls Requiring Management
Attention.

The weaknesses noted were:

       •   Job Corps management did not fully utilize monthly SPAMIS reports.

       •   Accounting and financial documents did not have the proper review or
           authorization.

       •   The contractor incorrectly accounted for bank charges.

       •   The contractor’s accountant was responsible for payroll tax review and was
           also listed as the IRS third party designee, resulting in a segregation of duties
           concern.

       •   The Job Corps Program Payroll Reports contained negative Federal Income
           Tax withholding for students paid.

These conditions occurred because either Job Corps management did not establish
policies and procedures for its staff to follow or the contract did not contain the
necessary procedures to be followed by the contractor. Further, contractor established
policies and procedures were incomplete or at times disregarded. These internal
control weaknesses could result in funding shortfalls, inaccurate reporting, and the
inability to detect fraud and/or erroneous payments. Additionally, financial information
to evaluate the Job Corps Program’s strengths and weaknesses and to detect
immediate and long-term trends remains unused.

The Government Accountability Office (GAO) Standards for Internal Control in the
Federal Government, Information and Communications, states:
10                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System


       Internal control also serves as the first line of defense in safeguarding
       assets and preventing and detecting errors and fraud … Internal control
       helps government program managers achieve desired results through
       effective stewardship of public resources.

The following provides details on each of the weaknesses we found.

Job Corps Management Did Not Fully Utilize Monthly SPAMIS Reports

GAO Standards for Internal Control in the Federal Government, Information and
Communications, states:

   For an entity to run and control its operations, it must have relevant, reliable
   and timely communications relating to internal as well as external events.
   Information is needed throughout the agency to achieve all of its objectives.
   Program managers need both operational and financial data to determine
   whether they are meeting their agencies’ strategic and annual performance
   plans and meeting their goals for accountability for effective and efficient use
   of resources. Financial information is needed for both external and internal
   uses. It is required to develop statements for periodic external reporting, and,
   on a day-to-day basis, to make operating decisions, monitor performance,
   and allocate resources.

RSIS prepared the monthly SPAMIS Statement of Position and Statement of Operations
Reports. Job Corps management said they and RSIS used the reports to perform
various financial reviews and trend analyses. Despite Job Corps management’s
assertions, we found no written evidence that they or RSIS reviewed the reports in order
to: take action if program expenses exceed the budgeted funds; detect fraud and/or
erroneous payments; or perform trend analysis to request timely budget modifications.

Accounting and Financial Documents Did Not Have the Proper Review or
Authorization

Review of the detail and summary accounting and financial documents provided by the
contractor disclosed that some documents did not have documentation to show they
were reviewed or authorized. The JCDC services contract did not specifically require
these reviews and authorizations. As a result, there was an increased risk that
erroneous or fraudulent accounting transactions could occur, and if undetected could
undermine the integrity of the reports produced by the JCDC.

According to the contract, the contractor was responsible for all payroll functions,
general ledger postings, reconciliations and tax payments and filings. The RSIS/JCDC
Accounting and Procedures Manual dated March 31, 2004, drafted by the contractor,
contained procedures addressing which documents needed contractor reviews.
However, the procedures contained in the contract and the RSIS/JCDC Accounting and
Procedures Manual did not specify the officials responsible for conducting the reviews.

U.S. Department of Labor—Office of Inspector General                                     11
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System


We reviewed the accounting and financial documents processed by the JCDC on a
regular basis, such as the Electronic Federal Tax Payment System (EFTPS) direct
payment worksheets, and Draws/Authorization sheets. We observed instances where
these documents were not reviewed or authorized.

The written procedures provided by the contractor were unclear as to who should
review and authorize the EFTPS and Draws/Authorization worksheets. Subsequent to
our notifying Job Corps management officials of this weakness, they told us controls will
be developed so that it is clear as to which contractor staff is responsible for reviewing
and authorizing the EFTPS and the Draws/Authorization worksheets. These reviews
began to take place as of October 21, 2004. The contract needs to be modified to
specify the individuals responsible for reviewing and authorizing these documents. Also,
the contractor needs to revise its RSIS/JCDC Accounting and Procedures to incorporate
the contractual requirements into its manual to provide for the necessary review and
authorization of financial documents.

The Contractor Incorrectly Accounted For Bank Charges

The contractor reported $110,327 in bank charges for bank analyses service charges
and business banking note interest payments to the incorrect general ledger accounts
on the Statement of Position. The contractor should have directly invoiced the bank
charges to the DOL for reimbursement and not reported them on the SPAMIS
Statements. Because the contractor did not comply with the terms of the contract, the
amount for the Bank Exception Account was overstated. Job Corps needs to establish
policies and procedures to monitor the contractor’s bank charges.

In July 2004, the contractor corrected the error by depositing the amount into the Main
Bank Account. The contractor then corrected the charges to the Main Bank Account.

The Contractor’s Accountant Was Responsible For Payroll Tax Review and Was
Also Listed as the IRS Third Party Designee, Resulting in a Segregation of Duties
Concern

The GAO internal control standard on segregation of duties states:

     Key duties and responsibilities need to be divided or segregated among
     different people to reduce the risk of error or fraud … No one individual
     should control all key aspects of a transaction or event.

The lack of segregation of duties situation existed because the contractor’s accountant,
who was responsible for preparing the bank reconciliations and reports and reviewing
the tax liability for the JCDC payroll taxes, was also the third party designee to discuss
payroll tax matters with the IRS. The Job Corps and contractor managers were not
aware that controls to ensure an adequate segregation of duties for these
responsibilities was needed. The existing process could present the contractor an
opportunity to conceal tax underpayments. Further, in any payroll tax matters involving

12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System

discussions with the IRS, the JCDC Contracting Officer’s Technical Representative
should be involved.

The Job Corps Program Payroll Reports Contained Negative Federal Income Tax
Withholding for Students Paid

The contract states: “The Contractor shall be responsible for all aspects of the pay
function including, but not limited to bi-weekly pay processing and distribution, allotment
processing and mailing, tax payment and reporting, producing and distributing W-2’s,
General ledger reporting and reconciliation, preparing and monitoring Electronic Funds
Transfers (EFT), printing and mailing all checks, reconciling the check register and
preparing all statuses to the Office of Job Corps.”

Our audit of the SPAMIS Post Termination Tax Reports for the period October 1, 2004,
to March 31, 2005, identified $2,272.50 in negative Federal income tax withholding.
Because the system was generating negative tax withholding, students were being
overpaid and additional funds were being drawn down to pay students.

According to the contractor, certain tax rules, built into the system, trigger calculation of
taxes during each bonus payroll run. JCDC corrected the system problem and we
found no other incidents of negative income tax withholding.

Recommendations

We recommend that the National Director of the Office of Job Corps develop policies
and procedures to enable the Job Corps staff and the Job Corps Data Center contractor
to:

1. Use the monthly JCDC Reports to identify trends and variances to help manage the
   program effectively and efficiently.

2. Provide for the necessary review and authorization of financial documents.

3. Monitor the accounting for bank charges.

4. Provide for segregation of duties for payroll tax payments and IRS correspondence.

Agency Response

The Job Corps Administrator responded that they took the following corrective actions:

   1. Added a comparative statement of operations to the financial package.
      Management reviews the statements, uses the variance analysis to identify
      differences, and follows up with additional investigation when warranted.

   2. Ensured EFTPS and the Draws/Authorization worksheet reviews are performed
      regularly and that the Job Corps Accounting Procedures includes that the EFTPS

U.S. Department of Labor—Office of Inspector General                                        13
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System

         Tax Payments are Draws be prepared by the Payroll supervisor and approved
         and documented by the Compliance Manager prior to payroll or tax-related action
         being taken.

     3. Corrected the bank posting error in July 2004 and the line of credit statements
        are reviewed as part of the month end closing process.

     4. Implemented segregation of duties for the payroll tax payments and IRS
        correspondence.

OIG Conclusion

The recommendations are resolved and will be closed when we verify that the
corrective actions have been implemented.


Objective 3 - Is Job Corps Effectively Managing Unclaimed Student Living and
Transition Allowance Checks?

Results

During the 2-Year Period Ending September 30, 2005, Job Corps
Took Action to More Effectively Manage the Significant Number of
Unclaimed Living and Allowance Checks by Reducing the Unclaimed Checks
Account Balance by $1.7 Million but Job Corps Has Not Determined
If States Escheatment Laws Apply to These Unclaimed Checks

Job Corps living and transition allowance checks mailed to Job Corps students were
often returned to the JCDC because the postal service was not able to deliver the
checks to the students. These checks represented amounts owed to Job Corps
students for allowances earned during the course of their participation in Job Corps. As
of September 30, 2003, the balance of the unclaimed and outstanding allowances was
$9,592,895.28. As of September 30, 2005, the balance had been reduced to
$7,883,316.22, a decrease of$1,709,579.06 over the 2-year period.

The reduction of $1.7 million in the Unclaimed Pay-Unclaimed Checks Account was a
result of actions taken by Job Corps management. Beginning in August 2004, the JCDC
mailed out letters to every former Job Corps student who had an unclaimed check
within the past 7 years. As a result of this effort, the JCDC reissued $1,994,993.58 in
student living and transition allowance checks during the period September 1, 2004,
through March 31, 2005.

Additionally the JCDC planned to do the following:

     •   Reissue letters to students whose letters were returned because the mailing
         address was incorrect, using alternative primary and secondary addresses on
         record.
14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System



   •   Send out a second round of center, regional and Career Transition Services
       (CTS) notifications.

Every state requires employers to turn over unclaimed property to their respective state.
For example, in one state, property that is unclaimed for 3 years is presumed
abandoned and must be remitted to the state. Job Corps managers and the contractor
said that they had not previously considered the issue of states’ escheat requirements
and, therefore, had not sought the advice of counsel. Job Corps has a significant
amount of unclaimed checks in storage that are over 7 years old. Job Corps could owe
the states the value of the unclaimed checks as determined by each state’s escheat
laws. Job Corps needs to determine if state escheat laws apply to the unclaimed pay
and take appropriate action.

Recommendations

We recommend that the National Director of the Office of Job Corps:

5. Request a Legal Opinion regarding whether Job Corps is required to escheat the
   unclaimed student property (living and transition allowance payments) to the states.

6. Rerun a report for the checks remaining unclaimed from the initial 120,633 mailings
   and prepare a second mailing.

Agency Response

The National Director of Job Corps responded that Job Corps will request a legal
opinion from the DOL Office of the Solicitor concerning the escheat of unclaimed
student living and transition allowance payments. The National Director of Job Corps
responded that Job Corps has performed the second mailing and they are now
performing mailings on a monthly basis.

OIG Conclusion

Recommendation 5 is resolved and will be closed when Job Corps provides us a copy
of the request to the Officer of the Solicitor for a Legal Opinion concerning the escheat
of the unclaimed student living and transition allowance payments. Recommendation 6
is resolved and will be closed when we verify that the corrective actions have been
implemented.



Elliot P. Lewis
October 13, 2005




U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System




Exhibits




U.S. Department of Labor—Office of Inspector General                                     17
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                                          Audit of Student Pay Allotment and Management Information System

                                                                                                             EXHIBIT A
                                                      SPAMIS
                                          Statement of Operations Reports

                                                                                    Percent                                  Percent
                                                                                       of                                       of
          Account Descriptions                                 FY 2004               Total              FY 2005               Total
REVENUE
Operating Revenue                                          $92,954,804.76                99.0      $90,650,434.06                 99.0
Miscellaneous Student Revenue                                  961,976.00                 1.0          841,978.78                  1.0
   Total Revenue                                            93,916,780.76               100.0       91,492,412.84                100.0

OPERATING EXPENSES
Living Allowance                                             42,739,123.31                46.0   41,998,106.52                     46.0
Transition Allowance                                         41,810,151.14                45.0   40,206,792.62                     44.0
Vocational Bonuses                                               22,250.00                  .0             .00                       .0
GED Bonus                                                         2,750.00                  .0             .00                       .0
Survey Bonus                                                    891,200.00                 1.0    1,064,730.00                      1.0
Government Share of Taxes                                     6,468,588.08                 7.0    6,567,062.17                      7.0
Government Share of Allotments2                               1,969,287.15                 2.0    1,650,635.40                      2.0
Taxable Transportation                                       10,858,588.42                11.0   10,037,455.56                     11.0
Clothing Allowance                                            6,007,921.65                 6.0    5,218,204.21                      6.0
Allowances for Non Reimbursable Charges3                   (16,866,510.07)              (18.0) (15,256,389.27)                   (17.0)
DOL Mandated Checks                                              13,431.08                            5,815.63                       .0


  Total Operating Expenses                                 $93,916,780.76               100.0      $91,492,412.84                100.0

   Net Income from Operations                                               .00                                     .00

   Other Income and Expenses                                                .00                                     .00

   Total Other Income and Expense                                           .00                                     .00

   Earnings Before Income Tax                                               .00                                     .00

NET INCOME (Loss)                                                           .00                                     .00




       2
         Students who have children or other dependents are eligible for allotments to help defray the costs of dependent
       care.
       3
         This account represents clothing allowance and taxable transportation that are non-reimbursable to the JCDC

       U.S. Department of Labor—Office of Inspector General                                                                 19
       Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                                           Audit of Student Pay Allotment and Management Information System

                                                                                                                Exhibit B
                                                       SPAMIS
                                             Statement of Position Reports

                                                     Balances as of                                  Balances as of
    Account Descriptions                           September 30, 2004                              September 30, 2005
           ASSETS
Cash
Main Bank4 Account                         ($2,720,190.28)                                ($1,904,500.72)
Holding Acct – Cash at
Centers                                                                                             2,080.04
   Total Cash                                                     ($2,720,190.28)                                 ($1,902,420.68)
Receivables
Due from Students                             1,986,063.74                                    1,254,748.98
Advance to Centers –Payroll                     408,909.32                                      194,332.65
Due from DOL – Unclaimed
Checks                                        9,269,385.38                                   7,883,316.22
Due from DOL- Tax Payments                      240,887.87                                     141,519.18
Due from DOL5                                19,975,901.72                                  17,909,174.03
Prepaid Allotments                                6,230.45                                      37,267.35
   Total Receivables                                                31,887,378.48                                   27,420,358.41
   Total Assets                                                     29,167,188.20                                   25,517,937.73

   LIABILITIES & EQUITY
Liabilities
Income Tax Payable                                1,408.09                                           0.00
Social Security Payable                         194,088.18                                     114,695.28
Medicare Payable                                 45,391.60                                      26,823.90
Unclaimed Pay – Centers                         351,207.53                                     203,528.84
Due to Centers                                  741,215.95                                     548,703.15
Transition Allowance Liability               16,416,221.73                                  14,499,580.87
Accrued Payroll                               1,621,847.67                                   1,991,443.07
Unclaimed Pay – Unclaimed
Checks                                        9,269,385.38                                    7,883,316.22
Line of Credit – Chase                         $526,422.07                                     $249,846.40
   Total Liabilities                                                29,167,188.20                                   25,517,937.73

Equity                                                                            0.00                                         0.00

Total Liabilities & Equity                                          29,167,188.20                                 $25,517,937.73


         4
           The normal balance is a credit balance due to checks that are issued and are outstanding and the monies to cover
         them has not been drawn down from DOL yet.
         5
           This is the main receivable for the operating draws necessary to pay student payrolls, bonuses and reimbursements
         to centers.

         U.S. Department of Labor—Office of Inspector General                                                             21
         Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System




Appendices




U.S. Department of Labor—Office of Inspector General                                     23
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                           Audit of Student Pay, Allotment and Management Information System

                                                                             APPENDIX A
BACKGROUND

The DOL Office of Job Corps administers the Job Corps program, which is a national
training and employment program for disadvantaged youth in the United States. This
program was established under the Economic Opportunity Act of 1964. The program
provides intensive educational and vocational training to disadvantaged youth, primarily
in a residential setting and operates exclusively as a distinct national program. There
are approximately 60,000 students located at 122 Job Corps centers nationwide.

The Office of Job Corps operates the JCDC, which provides technical and data services
for the program. This full service facility is located in Austin,Texas, and is operated by
RSIS, under the JCDC services contract with DOL. The JCDC maintained attendance
and progress records on all students, performed biweekly payroll processing, separation
and incentive pay processing, dependent support allotment payment processing, and
national performance and student outcome reporting. The JCDC provided a wide
variety of customer support services including 12 hours per day, 5 days per week,
network and customer support to respond to hardware, communications and systems
problems. The JCDC performed all payroll functions including responding to user
queries, processing and filing of unclaimed checks, general ledger posting and
reconciliation and tax payments and filings.

Students enrolled in Job Corps received Living Allowance payments throughout the
course of their training. They also receive Transition Allowances and Survey Bonuses
after termination from the program. During their stay at the Job Corps centers, students
were paid biweekly Living Allowances in cash. When students completed or left the
program, they were entitled to Transition Allowance payments based on their
achievements. If a student obtained a GED, he or she was entitled to $250. Vocational
Completers received $750. Students who earned a GED and were Vocational
Completers received $1,200. Non-completers received only final pay. Students entitled
to Transition Allowance payments received a portion of their allowance when they left
the Job Corps centers, and received the remaining portion when they reported to their
assigned CTS providers.

The JCDC transferred funds for the Living Allowances and Survey Bonuses to the Job
Corps Centers through an EFT by the bank. The center’s disbursed these funds to the
students either by cash or check. The JCDC is reimbursed by DOL through draw downs
from the Health and Human Services disbursement system.

The JCDC contractor used SPAMIS to generate and track student Living Allowance and
Survey Bonus payments. Student information was uploaded from the Job Corps
centers into the Center Information System then to the SPAMIS system where pay was
calculated. The information was exported into files that are uploaded into the
accounting system. The contractor used the MAS 200 program for its general ledger
and monthly program report preparation. The information was reconciled and reviewed

U.S. Department of Labor—Office of Inspector General                                     25
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System

and the reports for the Job Corps program were produced on a monthly basis. After the
contractor prepared the program reports, they were sent to the Job Corps’ Division of
Budget and Facility Support (DBFS), in Washington, D.C. DBFS management said they
used the reports to compare draw downs to the Department of Labor Accounting and
Reporting System (DOLAR$). DBFS management said they forward the reports to the
Office of Financial and Administrative Services which used them to project expenses
and liabilities for recording in DOLAR$.




26                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System

                                                                             APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

We conducted a performance audit of SPAMIS activity and results for FYs 2004 and
2005. The purpose of our audit was to answer the following questions.

1. Were the Statements of Position as of March 31, 2004, and March 31, 2005, and the
   corresponding Statement of Operations reports for the 6 months then ended,
   supported by the general ledger and student data, and were the Fiscal Year 2004
   and 2005, ending account balances within expected tolerances?

2. Were internal controls over SPAMIS financial operations adequate?

3. Is Job Corps effectively managing unclaimed Living and Transition Allowance
   checks?

Scope

The scope of our audit was SPAMIS activities and results for FYs 2004 and 2005,
(October 1, 2003 through September 30, 2005). We conducted our audit at the JCDC
in Austin, Texas, between May 11 and June 24, 2004, for FY 2004, and between
April 26 and June 22, 2005, for FY 2005. We continued to receive monthly Job Corps
program reports and the accompanying notes from the contractor. Also, at 12 randomly
selected Job Corps centers, we conducted testing of Student Living and Transition
Allowance payments for each FY.

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits issued by the Comptroller General of the United
States. An audit made in accordance with these standards provides reasonable
assurance that its objectives were achieved; but it does not guarantee the discovery of
illegal acts, abuse or all internal control weaknesses. Providing an opinion on
compliance with all laws, regulations, and other compliance requirements or internal
controls was not an objective of our audit and accordingly, we do not express such an
opinion. We believe our audit provides a reasonable basis for our assessment and
conclusions.

In planning and performing our audit, we considered internal controls over program
reporting by obtaining an understanding of the offices’ internal controls, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of internal controls in order to determine our auditing procedures. The
objective of our audit was not to provide assurance on the internal controls over
financial reporting. Consequently, we do not provide an opinion on internal controls.



U.S. Department of Labor—Office of Inspector General                                      27
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System

Our consideration of internal controls over program reporting would not necessarily
disclose all matters that might be reportable conditions. Reportable conditions are
matters coming to our attention relating to significant deficiencies in the design or
operation of the internal controls that, in our judgment, could adversely affect the
agency’s ability to record, process, summarize, and report program data consistent with
the assertions of management in the financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that misstatements
in amounts that would be material in relation to the financial statements being audited
may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in
internal controls, misstatements, losses, or noncompliance may nevertheless occur and
not be detected. We noted matters involving the internal controls and its operation that
we considered to be reportable conditions but not material weaknesses as detailed in
this report.

The conclusions provided in this report are the result of our performance audit of
SPAMIS activities and results for FYs 2004 and 2005. Changes in management of the
program, including changes in controls or laws, regulations, and other compliance
requirements could result in performance that would be different from the performance
during that period. Therefore, this report should not be used to evaluate performance
results of future periods.

Methodology

From 90 Job Corps Centers operating under DOL contracts, we randomly selected 12
Centers for each FY that our audit covered. We conducted substantive and compliance
testing of a random sample of Student Living and Transition Allowance payments at
the12 randomly selected Job Corps Centers for each FY. At the Job Corps Centers, we
also reviewed monthly reconciliations; performed an independent reconciliation of fund
transfers; traced unclaimed student pay from pay rosters to bank deposits; observed
student pay distributions; performed substantive and compliance testing on a random
sample of students who received Living Allowance payments and students who
received Transition Allowance payments; and tested for irregular or improper student
payments. An Independent Public Accountant under contract with the OIG visited and
performed audit work of the Job Corps Centers. The following table shows the sample
sizes and Job Corps Centers visited for each FY.




28                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System



                       FY 2004                                  FY 2005
               Payment            Sample Size          Payment            Sample Size
      Living Allowance                319       Living Allowance              320
      Transition Allowance            365       Transition Allowance          355
           Job Corps Center        Location       Job Corps Center         Location
                                 Albuquerque,                          Sedro Woolley,
  1. Albuquerque                                Cascades
                                 New Mexico                            Washington
                                 Edinburgh,                            Morganfield,
  2. Atterbury                                  Clements
                                 Indiana                               Kentucky
                                 Morganfield,                          Gadsen,
  3. Earle C. Clements                          Gadsen
                                 Kentucky                              Alabama
                                 San Marcos,                           San Marcos,
  4. Gary                                       Gary
                                 Texas                                 Texas
                                 Homestead,                            San Bernadino,
  5. Homestead                                  Inland Empire
                                 Florida                               California
                                 Medina,                               Jacksonville,
  6. Iroquois                                   Jacksonville
                                 New York                              Florida
                                 Laredo,                               Drums,
  7. Laredo                                     Keystone
                                 Texas                                 Pennsylvania
                                 McKinney,                             Limestone,
  8. North Texas                                Loring
                                 Texas                                 Main
                                 Bangor,                               Los Angeles,
  9. Penobscot                                  Los Angeles
                                 Maine                                 California
                                 Reno,                                 Vergennes,
  10. Sierra Nevada                             Northlands
                                 Nevada                                Vermont
                                 San Francisco,                        Pittsburgh,
  11. Treasure Island                           Pittsburgh
                                 California                            Pennsylvania
                                 Albany,                               San Jose,
  12. Turner                                    San Jose
                                 Georgia                               California

We determined whether Living Allowances paid during the period were accurate for
each sampled student by:

       •    Recalculating the Base Pay Rate for each pay period using the cumulative
            number of Paid Training Days.
       •    Recalculating the number of Paid Training Days and the Base Pay Rate for
            each pay period for each student in our sample.
       •    Recomputing the Living Allowance for each student for each pay period.
       •    Comparing the recalculated Living Allowance for each student to the amount
            paid per SPAMIS.


U.S. Department of Labor—Office of Inspector General                                     29
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System

We determined whether Transition Allowances paid during the period were accurate for
each sampled student by:

       •   Recomputing the amount of Transition Allowance due at the time of
           termination for each student in the sample, and comparing it to the Transition
           Allowance amount paid per SPAMIS.
       •   Selecting a sample from the student pay rosters or the listings of students
           who did not pick up their Transition Allowance payment, and obtaining
           evidence to verify that the students actually existed (by reviewing student
           files, and interviewing counselors or instructors).
       •   Verifying that copies of the GED or High School diplomas were in the file for
           GED/High School graduates.
       •   Verifying that the Training Achievement Records were completed for
           vocational completers.

To ensure that the MAS 200 general ledger revenue transactions were properly
supported by the Health and Human Services/Payment Management System
drawdowns made by the JCDC for allowance payments, we reconciled the drawdowns
recorded by JCDC to the general ledger for the periods October 1, 2003, to March 31,
2004, and October 1, 2004, to March 31, 2005. We also tested to ensure that the
system drawdown requests recorded by the JCDC equaled the system drawdown
payments posted in DOLAR$ for the same period. We also analyzed JCDC cash
requirements, system drawdowns, and the amount posted in DOLAR$.

We performed other tests on the Job Corps Program Reports accounts. For FY 2004,
we performed tests on accounts with balances $500,000 and greater and having
significant activity as of March 31, 2004. We used random sampling. First we randomly
selected Job Corps centers that supported the activity in the account. Then we
randomly selected one month from the period October 1, 2003, through March 31,
2004. We traced the data from the SPAMIS program that was exported to Excel
spreadsheets to the MAS 200 generated general ledger to the Trial Balance and
ultimately to the Job Corps Program Reports. We gathered detailed student data
information generated by the SPAMIS program and exported into the MAS 200 general
ledger. In order to test the data reliability, we analyzed the SPAMIS data and made
sure it was complete.

Specifically, that the data contained:

       •   student name
       •   pay type
       •   pay period
       •   payroll identification number
       •   dollar amount

For FY 2005, we used Excel spreadsheet schedules provided by the contractor which
contained the SPAMIS generated monthly account activity for each account on the

30                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System

general ledger by Job Corps Center and by dollar amount. The schedules contained
information for the period October 1, 2004, through March 31, 2005. We chose a
sample size of 88 in total Job Corps program reports account activity, for the Statement
of Operations (55) and the Statement of Position (33) respectively.

We determined whether account activity during the period were accurate for each item
sampled:

       We chose the sample size for the Statement of Operations (55) and the
       Statement of Position (33), respectively, for a total of 88 general ledger account
       transactions.

       We provided the sample selected to the contractor.

       The contractor provided us with the SPAMIS documentation and general ledger
       detail report to support the general ledger account activity sampled.

       We reviewed the data and verified Job Corps Center name, account name,
       account number, date, and dollar amount sampled were accurate.

Additionally, we chose attribute sampling as a sampling technique so amounts on the
general ledger and the internal controls associated with them could be tested.
Specifically, we tested that the data contained the following attributes:

       The sample data selected from SPAMIS was recorded accurately and timely in
       the general ledger.

       The sample represented valid student payroll expense,

       The sample was described accurately in the MAS 200 account description guide.

For the second half of FYs 2004 and 2005, we performed an analytical review of the
account balances and activities. The analytical review included comparing current and
prior year costs, preparing estimated Job Corps Program Reports, examining trend
analysis data, and considering variance explanations provided by the contractor
regarding these variances.

For FY 2004 and FY 2005, we sent bank account confirmation requests to the Chevy
Chase Bank for the Main Bank Account and Line of Credit – Chase as of March 31,
2004, and March 31, 2005. We also compared the monthly bank reconciliations to the
Bank Statements and agreed with the reconciled balances of the Job Corps Program
reports.

We reviewed the methodology and contractor prepared schedules used for the Payroll,
Living Allowance, and Transition Allowance projected expenses and liabilities made by
the contractor for the 6-month period ending March 31. We also reviewed the


U.S. Department of Labor—Office of Inspector General                                     31
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System

schedules prepared for the Payroll, Living Allowance and Transition Allowance Liability
projected expenses and liabilities. We compared the Job Corps Program report
account balances to the schedules and checked for accuracy.

Additionally, to ensure the proper amounts were posted to the MAS 200 general ledger,
we traced the dollar amounts for the period of October 1 through March 31, for each FY
from the Job Corps Program Reports to the general ledger to the Payroll, Living
Allowance, and Transition Allowance project expense and liability schedules provided
by the contractor.

To accomplish our audit, we gained an understanding of the JCDC's internal control
processes and obtained knowledge about the design of relevant controls and whether
they were in operation. We performed system walk-throughs to confirm the
understanding of significant information about the payroll and accounting systems. In a
walk-through of the SPAMIS and MAS 200 systems, we traced one payroll cycle from
initiation to inclusion of the transactions in the general ledger, we observed the
processes in operation and we examined the supporting documents, that included:
Payroll Verification Reports, Bank Cash Requirement Reports, Payroll Deductions
Report , Payroll Earnings Report , Los Angeles Job Corps Center Payroll Run check,
Allotment Check Register, Job Corps Program reports, and Manual Check processing
report with supporting documents.

The contractor explained the flow of transactions through the various payroll/cash
disbursement processes. We documented, or observed the operations of the
Payroll/Cash Disbursement cycle through the following stages:

       •   Student data was uploaded from the Job Corps centers into the Center
           Information System,
       •   Student pay from SPAMIS was recalculated,
       •   Student pay was reviewed by the Contractor,
       •   Contractor requested funds were drawn down,
       •   Student Living Allowance pay was transferred electronically to the Job Corps
           Centers, except, one Center that disbursed checks in lieu of cash for the bi-
           weekly student payroll run,
       •   Student Allotment, Transition Allowance and Bonus checks were run and
           mailed to students,
       •   Student payroll taxes were paid to the IRS,
       •   JCDC daily bank activity was reviewed, and
       •   Ultimately the JCDC general ledger journal entries were posted.

We verified the physical inventory of unclaimed checks filed and held in storage, on and
offsite by the JCDC. As of March 31, 2004, the inventory contained 119,207 unclaimed
checks. For FY 2004, we randomly sampled 25 unclaimed checks from the unclaimed
check inventory report for each of the last seven years, except November 2000, where
we sampled 24 checks. We tested 174 checks in total. We also randomly sampled 25
checks filed and stored onsite at the JCDC. We discussed the unclaimed check

32                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System

procedures in place at the JCDC during an interview with the contractor staff. We
agreed with the account balance on the Job Corps Program Report to the general
ledger Trial Balance and detailed unclaimed check inventory schedules provided by the
contractor.

For FY 2005, we performed detailed reviews of all accounts. For FY 2004, we
performed minimum review procedures on the following accounts that were
insignificant:

       •   Prepaid Allotments
       •   DOL Mandated checks
       •   and Bad Debt Expense

Criteria
We used the following criteria to perform this audit:

   •   Standards for Internal Control in the Federal Government (November 1999)

   •   Contract J-9-A-1-0003, RSIS

   •   SPAMIS User Manual (June 30, 2002)

   •   RSIS Employee Handbook (July 1, 2001)

   •   Student Payment Allowance and Allotment System (January 2001)

   •   Policy and Requirement Handbook (PRH July 1, 2001)

   •   Payroll Processing Procedures

   •   General Ledger MAS 200 Manual (1998 – 2001)




U.S. Department of Labor—Office of Inspector General                                     33
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                            Audit of Student Pay Allotment and Management Information System

                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS

CTS           Career Transition Service

DBFS          Job Corps Division of Budget and Facility Support

DOL           U.S. Department of Labor

DOLAR$        Department of Labor Accounting and Reporting System

EFTPS         Electronic Federal Tax Payment System

EFT           Electronic Funds Transfer

FY            Fiscal Year

GAO           Government Accountability Office

GED           General Educational Development

IRS           Internal Revenue Service

JCDC          Job Corps Data Center

MAS 200       Mid-Level Accounting Solution 200

OIG           Office of Inspector General

RSIS          RS Information Systems, Inc.

SPAMIS        Student Pay Allotment and Management Information System

SSA           Social Security Administration




U.S. Department of Labor—Office of Inspector General                                     35
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
                           Audit of Student Pay, Allotment and Management Information System

                                                                             APPENDIX D
AGENCY RESPONSE TO THE DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                     37
Report Number: 03-06-003-01-370
Audit of Student Pay, Allotment and Management Information System




38                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-003-01-370
